         Audit Report




Field Office Performance




 A-15-12-11290 | November 2013
MEMORANDUM


Date:      November 8, 2013                                                   Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Field Office Performance (A-15-12-11290)

           The attached final report presents the results of our audit. Our objective was to report on Social
           Security Administration field office performance for certain key workloads.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Field Office Performance
A-15-12-11290

November 2013                                                               Office of Audit Report Summary

Objective                                   Our Findings

To report on Social Security                This report assesses workload data reliability and identifies
Administration (SSA) field office (FO)      instances of possible outlying performance within the Office of
performance for certain key workloads.      Operations’ FO structure. Given our findings, the Agency should
                                            examine these anomalies and implement corrective actions, where
Background                                  appropriate. This report focuses on five key workloads, processing
                                            times, visitor counts, and wait times. There are additional factors,
SSA FOs are the primary points of           beyond the numerical statistics we analyzed, that may provide a
contact for in-person interaction with      more comprehensive assessment of FO performance. The findings
the public. SSA’s FO organizational         outlined in this report could help SSA identify performance trends
structure comprises 10 regional offices,    and training needs as well as best practices that may be helpful
6 processing centers, and                   nationwide.
approximately 1,260 FOs.
                                            During our analysis of FO performance on specific workloads, we
To assess SSA’s workload data               noted that, in general, higher performing FOs cleared more claims
reliability, we reviewed several data       and other services—in total and on a per-employee basis. Higher
sources. Our review revealed several        performing FOs also generally had larger volumes of visitors
concerns related to the completeness,       without appointments, but these customers had longer wait times
accuracy, and consistency of data           than customers at lower performing FOs. Further, higher
obtained. We also noted that FO staff,      performing FOs had larger staff sizes than lower performing FOs.
supervisors, and managers had
numerous workload reports available         SSA representatives stated that regional and area offices monitored
to monitor FO workloads. For our            individual FO performance through personal contact with office
review, we were not able to determine       managers and the significant MI collected. Office of Operations
which sources provided accurate and         executives stated that they monitored FO performance at a high
complete workload data. At the              level, rather than at an individual office level. We believe national
request of SSA management, we               level monitoring would assist the Agency with its increasing
analyzed FO performance using the           workloads and decreasing workforce.
following sources: (1) District Office
Workload Report, (2) Management             Our Recommendations
Information (MI) Central Processing
Time Reports, and (3) MI Central            1. Identify the most accurate, complete, and reliable data source(s)
Customer Service Record Reports.               for Agency workload count and processing time data, and
                                               ensure that all Agency components are using the same source(s)
After discussions with SSA                     for reporting purposes.
management, we chose the following
workloads for review: (1) title II Old-     2. Develop a methodology for measuring and monitoring nation-
Age and Survivors Insurance claims,            wide FO performance to ensure accurate, consistent, and timely
(2) title II Disability Insurance claims,      customer service.
(3) title XVI Supplemental Security
Income Disabled/Blind claims, (4) title     SSA agreed with our recommendations.
II and XVI Status Changes and Benefit
Verifications, and (5) Enumerations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
     FO Responsibilities ....................................................................................................................1
     SSA Organizational Structure ....................................................................................................1
     Data Reliability ..........................................................................................................................2
     Measuring FO Performance .......................................................................................................3
Results of Review ............................................................................................................................5
     Average Number of Employees to Workload Volume ..............................................................5
     Comparison of FO Employees Versus Workload Cleared ........................................................6
     Analysis of 1,177 FO Population ...............................................................................................8
     Analysis of 32 FO Population ..................................................................................................10
Conclusions ....................................................................................................................................12
Recommendations ..........................................................................................................................14
Agency Comments .........................................................................................................................15
Appendix A – Social Security Administration Organizational Chart ........................................ A-1
Appendix B – Data Reliability ................................................................................................... B-1
Appendix C – Management Monitoring Reports ....................................................................... C-1
Appendix D – Scope and Methodology ..................................................................................... D-1
Appendix E – Field Office Analysis ..........................................................................................E-1
Appendix F – Agency Comments ............................................................................................... F-1
Appendix G – Major Contributors.............................................................................................. G-1




Field Office Performance (A-15-12-11290)
ABBREVIATIONS
APP                 Annual Performance Plan
CDR                 Continuing Disability Review
D/B                 Disabled/Blind
DDS                 Disability Determination Services
DI                  Disability Insurance
DIB                 Disability Insurance Benefit
DOWR                District Office Workload Report
DOWS                District Office Work Sampling
FO                  Field Office
FY                  Fiscal Year
GAO                 Government Accountability Office
LI                  Limited Issue
MI                  Management Information
OASDI               Old-Age, Survivors and Disability Insurance
OASI                Old-Age and Survivors Insurance
ODCO                Office of the Deputy Commissioner, Operations
ODS                 Operational Data Store
OES                 Office of Electronic Services
OIG                 Office of the Inspector General
OPSOS               Office of Public Service and Operations Support
ORC                 Office of the Regional Commissioner
PAR                 Performance and Accountability Report
RIB                 Retirement Insurance Benefit
RO                  Regional Office
RS                  Resident Station
RSHI                Retirement, Survivors, and Health Insurance
RZ                  Redetermination
SSA                 Social Security Administration
SSI                 Supplemental Security Income
SUMS/MCAS           SSA Unified Measurement System/Managerial Cost Accounting System



Field Office Performance (A-15-12-11290)
OBJECTIVE
Our objective was to report on Social Security Administration (SSA) field office (FO)
performance for certain key workloads.

BACKGROUND
In Fiscal Year (FY) 2012, SSA provided approximately $810 billion in benefit payments to over
61 million Social Security and Supplemental Security Income (SSI) recipients. SSA FOs are the
primary points of contact for in-person interaction with the public.

SSA’s FO organizational structure comprises 10 regional offices, 6 processing centers, and
approximately 1,260 FOs. FOs range in size from large urban offices with 50 or more
employees to very small offices in remote areas called resident stations (RS). FOs also offer
services to the public through 57 contact stations. These stations provide limited functions and
are staffed with one SSA FO employee who travels once a month to certain locations, such as a
hospital, to provide service to customers who lack transportation or telephone access. As of
September 2012, there were approximately 28,000 FO employees in the United States, Puerto
Rico, American Samoa, Guam, the Northern Mariana Islands, and the U.S. Virgin Islands.

FO Responsibilities
In FY 2012, SSA assisted about 45 million visitors. FO workloads include 1

·      taking applications 2 and updating records for Social Security numbers,
·      taking applications and determining eligibility (nonmedical only) for Old-Age, Survivors and
       Disability Insurance (OASDI) and SSI benefit payments, and
·      conducting continuing nonmedical eligibility reviews to ensure payment accuracy. 3

SSA Organizational Structure
FO Operations Supervisors, Assistant District Managers, and District Managers plan, organize,
direct, and control the operating procedures related to the workloads listed above.

All FOs report to an Area Director, who plans, directs, and coordinates the FOs’ activities and
ensures FO District Managers are carrying out their assigned responsibilities fully and
effectively. In response to an initial draft report, SSA stated,


1
 The source for the types of work conducted by SSA FOs was a Government Accountability Office report, Social
Security Administration Field Offices (GAO-08-737T), May 2008, p. 5.
2
    SSA refers to these applications as its enumeration workload.
3
    SSA refers to these reviews as its continuing disability review (CDR) and redetermination (RZ) workloads.



Field Office Performance (A-15-12-11290)                                                                        1
           On a daily basis, the [Area Director] monitors FO performance using a variety of
           [Management Information] reports that help identify performance outliers. With this
           information, the Area Director discusses the outlier with the District Manager to
           determine if an office is addressing the performance with its own resources, or if the
           office needs assistance. In recent years, due to staffing imbalances, Area Directors
           commonly move work to where resources can meet the demand.

Area Directors provide executive leadership and guidance to District Managers by facilitating the
establishment of long-range operating plans, schedules, and goals and emphasizing the
attainment of regional workload goals.

Each Area Director is a member of the Office of the Regional Commissioner’s (ORC) executive
staff and a key official in the Office of the Deputy Commissioner, Operations (ODCO). Ten
ORCs provide regional program leadership and technical direction for the OASDI and SSI
programs. Each ORC maintains a broad overview of administrative operations.

ODCO provides general supervision to its major components, including the ORCs. In addition,
ODCO is directly responsible to the Commissioner of SSA for carrying out the ODCO mission,
including (1) processing operations workloads effectively, efficiently, and accurately;
(2) implementing improvements to the disability program; and (3) effectively stewarding
programs and resources.

The Office of Public Service and Operations Support (OPSOS), a component within ODCO,
provides broad operations support to FOs. OPSOS directs and coordinates internal management
support functions to ensure effective position management, workforce utilization, and
management analysis and planning. For an organizational chart of these offices, please refer to
Appendix A.

SSA uses workload information from the FOs and other operational components to prepare a
number of reports viewed by Congress and the public, including its Annual Performance Plan
(APP) and Performance and Accountability Report (PAR), as well as information reported on
data.gov, 4 an official Website of the U.S. Government.

Data Reliability
To assess SSA’s workload data reliability, we reviewed several data sources, including (1) the
number of SSA FOs, (2) Management Information (MI) workload counts and processing times,
and (3) workload counts and processing times observed during visits to 14 FOs. Our review
revealed several concerns related to the completeness, accuracy, and consistency of data
obtained. For example, we noted

·      several offices were incorrectly categorized as FOs,



4
    https://explore.data.gov.



Field Office Performance (A-15-12-11290)                                                            2
·   several offices that were identified as closed before the beginning of FY 2011 had District
    Office Workload (DOWR) counts and other MI data as of the end of FY 2011, and
·   workloads and employees were inconsistently tracked at resident stations.

For a comprehensive discussion of data reliability issues noted during our review, refer to
Appendix B. In addition, we noted that FO staff, supervisors, and managers had numerous
workload reports available to monitor FO workloads. According to SSA, “It is these reports that
an Area Director uses to assess outliers as discussed above.” We provide an example of the
names of approximately 100 reports available to management from 1 of the regional offices (RO)
we visited in Appendix C. Because of the large number of reports available, we were unable to
determine which report(s) provided the most complete and accurate data to analyze FO
performance. We discussed data reliability issues with SSA managers. In response, Office of
Operations executives stated the Agency was “. . . currently developing a standardized, national
management information report to track established Public Service Indicators (PSIs) to ensure
consistency and eliminate duplication of efforts.” In addition, these executives stated they were
“. . . devising an integrated methodology to help management officials at the local, area,
regional, and national levels identify and address performance anomalies, trends, and training
needs. This approach will enable SSA’s regional executives to measure and monitor field office,
area, and regional level performance of non-PSI workloads consistently nationwide.”

For our review, we were not able to determine which sources provided accurate and complete
workload data. At the request of SSA management, we analyzed FO performance using the
following sources: (1) DOWR, (2) MI Central Processing Time Reports, and (3) MI Central
Customer Service Record Reports.

Measuring FO Performance
After discussions with SSA management and based on FY 2011 cleared workload counts, we
chose the following workloads for review

1. Title II Old-Age and Survivors Insurance (OASI) claims,

2. Title II Disability Insurance (DI) claims,

3. Title XVI SSI Disabled/Blind (D/B) claims,

4. Title II and XVI Status Changes and Benefit Verifications, and

5. Enumerations. 5




5
 The three workloads—Status Changes, Benefit Verifications, and Enumerations—will be referred to as other
services from here forward.



Field Office Performance (A-15-12-11290)                                                                    3
We chose to review these workloads because they represented approximately 76 percent of all
cleared workloads in FY 2011. In addition, we examined workload processing times, the
number of visitors at each FO, and the average wait time for visitors with(out) appointments.
There were also a number of workloads, as well as other factors—including, but not limited to,
composition of FO staff, workload sharing, workload accuracy and quality, and customer
service—that we did not consider in our methodology for reporting FO performance. See
Appendix D for further discussion.

Our initial review of the data determined there were 1,209 FOs during our review period. We
determined that 32 FOs had low enumeration workloads because of their proximity to a card
center. Since card centers assist these 32 FOs, we reviewed them separately. We based our final
FO analysis on 2 populations: the 32 FOs that were aided with their enumeration workloads
because of their proximity to a card center 6 and the remaining 1,177 open FOs in the 50 United
States (and Washington, D.C.). 7

For each of the workloads described above, we measured the (1) volume of the workload at each
FO compared to the volume in each population and (2) productivity of FO staff by computing the
claim/service per average employee. For the processing and visitor wait times, we also used the
time factor 8 in our determination of an FO’s numerical score. We issued each FO a numerical
score (for example, 1 represents the highest performing FO and 1,177 represents the lowest
performing FO) based on the results of our volume, productivity, and processing time/wait time
factors. For a complete discussion of our methodology as well as descriptions and sources of
other information we obtained for each FO, refer to Appendix D.

We provided an initial draft report to SSA management for review. SSA provided the following
comment:

           . . . the relative lack of hiring authority over the past three years in the face of
           mounting attrition has created a number of challenges in meeting public service
           demands. These demands seem to be escalating at the very time that resources are
           diminishing without much hope for replacement hires on the horizon. For that reason
           offices and regions have had to be resourceful in looking beyond the traditional field
           office service areas to marshal resources. Through virtualization and centralization of
           the work we are filling in the gaps the loss of personnel has created. Since losses are
           uneven between offices, where even the viability of an office has been challenged, this
           approach is what has kept our heads above water in these very challenging
           time[s] . . . .




6
    These FOs were in the (1) New York, (2) Atlanta, (3) Chicago, and (4) San Francisco Regions.
7
 For a complete description of how we selected our populations, including which FOs we excluded, refer to
Appendix D.
8
    Factors of time were in minutes, days, and percentages.



Field Office Performance (A-15-12-11290)                                                                    4
RESULTS OF REVIEW
This report assesses workload data reliability and identifies instances of possible outlying
performance in the Office of Operations’ FO structure. Given our findings, the Agency should
examine these anomalies and implement corrective actions, where appropriate. This report
focuses on five key workloads, processing times, visitor counts, and wait times. There are
additional factors, beyond the numerical statistics we analyzed, that may provide a more
comprehensive assessment of FO performance. The findings outlined in this report could help
SSA identify performance trends and training needs as well as best practices which may be
helpful nationwide.

During our analysis of FO performance on specific workloads, we noted that higher performing
FOs generally cleared more claims and other services—in total and on a per-employee basis.
Higher performing FOs also generally had larger volumes of visitors without appointments, but
these customers had longer wait times than customers at lower performing FOs. Further, higher
performing FOs had larger staff sizes than lower performing FOs.

SSA representatives stated that regional and area offices monitor individual FO performance
through personal contact with office managers and the significant management information
collected. Office of Operations executives stated that they monitor FO performance at a high
level, rather than at an individual office level. We believe national-level monitoring would assist
the Agency with its increasing workloads and decreasing workforce. For example, through the
Agency’s increasing capacity to shift workloads between offices, monitoring at a national level
could better permit offices within a region to assist stressed offices in other regions.
Accordingly, we encourage the Agency to consider developing a more extensive nationwide
monitoring system. After our review, SSA provided the following comment to our draft report,
“Operations executives indicated that managers, area directors, and regional office staff share
best practices . . . on a regular basis at the local, area, and inter/intra-regional levels. Through
this process, they foster communication and collaboration, promote better customer service, and
maximize their limited resources.”

Average Number of Employees to Workload Volume
SSA FO service areas vary in size and demographic characteristics. For example, FOs in some
service areas may receive more title XVI SSI claims than title II DI claims. Using DOWR
workload count data, we determined the average claims/services per average employee in
FY 2011. As shown in the ranges below, the average number of claims/services per average
employee varied greatly by FO.




Field Office Performance (A-15-12-11290)                                                           5
         Table 1: Range of Average Claims/Services per Average Employee in FY 2011
                                                                                 Title II and
                                                                                 XVI Status
                                                                                Changes and
                                                            Title XVI SSI          Benefit
                     Title II OASI       Title II DI        D/B Cleared         Verifications      Enumerations
                    Cleared Claims     Cleared Claims           Claims            Cleared            Cleared
    1,177 FO                                                                       460.63 -           113.29 -
    Population       30.52 - 347.60     40.85 - 278.74       26.17 - 233.03        6,417.73           1,210.43
      32 FO                                                                        725.73 -
    Population       46.49 - 258.81     73.79 - 164.23       46.21 - 147.11        2,770.04             N/A

We also requested information on the average time 9 to complete each of the tasks noted above.
SSA provided the following information.

·     Title II OASI: 84 minutes
·     Title II DI: 125 minutes
·     Title XVI SSI D/B: 85 minutes
·     Title II and title XVI Status Changes and Benefit Verifications
                 o Title II Status Changes: 4 minutes
                 o Title XVI Status Changes: 7 minutes
                 o Benefit Verifications: 3 minutes
·     Enumerations (original/replacement Social Security Numbers): 15 minutes

Comparison of FO Employees Versus Workload Cleared
In addition, we observed that a larger number of employees in an FO may not always equate to
higher clearance rates. Table 2 provides two examples where the claims/other services cleared
were similar for two offices, but the number of FO staff was different.




9
 SSA provided us the average time to complete the workloads discussed in this report for informational purposes
only. We did not consider these times in our methodology for analyzing FO performance, as discussed on pp.
8 through 13 and Appendix D.



Field Office Performance (A-15-12-11290)                                                                          6
              Table 2: Comparison of Employees Versus Claims/Services Cleared FY 2011
                                 FO Staff                                            Title II and
                   Average       Average                                Title        XVI Status
                     FO          Years of      Title II    Title II     XVI         Changes and
                  Employees      Service        OASI         DI        SSI D/B         Benefit
                   2010 to         FY          Cleared     Cleared     Cleared      Verifications      Enumerations
                    2011          2011         Claims      Claims      Claims         Cleared            Cleared
                                                     Example 1
FO 1                  22             14         1,204    1,860           2,126          25,249              18,186
FO 2                  13             16         1,495    1,642           1,517          39,354              4,427
            10
Differences            9             (2)        (291)     218             609          (14,105)             13,759
                                                     Example 2
FO 3                  35             15         4,270    3,278           2,392          58,696              13,793
FO 4                  26             22         3,818    3,463           2,585          59,783              12,748
Differences 11         9             (7)         452     (185)           (193)          (1,087)              1,045

   In the two examples above, the FOs cleared relatively the same number of claims and other
   services; however, one FO in each example had nine more employees than the other FO. We
   also noted in these examples that FOs with higher staff levels had fewer average years of service.

   Table 3 provides two examples where the numbers of FO staff were similar, but the number of
   claims/other services cleared was different.




   10
    A positive amount represents the first FO listed as having more employees, claims and/or services than the second
   FO listed, while a negative amount represents the second FO having more claims and/or services than the first FO.
   11
        Id.



   Field Office Performance (A-15-12-11290)                                                                          7
               Table 3: Comparison of Employees Versus Claims/Services Cleared FY 2011
                                                                                      Title II and
                      Average      FO Staff                              Title         XVI Status
                        FO         Average      Title II     Title II    XVI          Changes and
                     Employees     Years of      OASI          DI       SSI D/B         Benefit
                      2010 to      Service      Cleared      Cleared    Cleared       Verifications     Enumerations
                       2011        FY 2011      Claims       Claims     Claims          Cleared           Cleared
                                                     Example 1
FO 5                      49           16         7,097   5,384           3,414          108,121             7,819
FO 6                      49           12         2,167   3,028           3,410          84,574              9,751
            12
Differences               -0-           4         4,930   2,356             4             23,547            (1,932)
                                                     Example 2
FO 7                      55          10          9,276   6,300           4,297          261,523             28,328
FO 8                      56          14          6,924   2,977           3,443          92,650              42,198
Differences 13            (1)         (4)         2,352   3,323            854           168,873            (13,870)

    In the two examples above, the FOs had relatively the same number of employees; however, the
    number of claims and other services cleared varied greatly from one FO to the other.

    Analysis of 1,177 FO Population
    Based on the results of our methodology, 14 we determined the highest and lowest 10 performing
    FOs in our population of 1,177 FOs. Refer to Table E–1 and Table E–2 in Appendix E, which
    display workload, processing time, visitor counts, wait times, and demographic information for
    each of the FOs in the highest and lowest 10 of our 1,177 FO population.

    In addition to analyzing the average performance of the highest and lowest 10 FOs, we separated
    the 1,177 FO population into the following tiers.

    1. Tier 1 – FOs in the top half of the population for all 3 data sources, 15 which resulted in
       300 FOs;

    2. Tier 3 – FOs in the bottom half of the population for all 3 data sources, which resulted in
       297 FOs; and

    3. Tier 2 – the remaining 580 FOs.


    12
         Id.
    13
         Id.
    14
         Refer to Appendix D.
    15
      As previously stated, the three data sources were (1) DOWR, (2) MI Central Processing Time Reports, and (3) MI
    Central CSR Reports.



    Field Office Performance (A-15-12-11290)                                                                       8
Table E–3 in Appendix E displays the average workloads, processing times, visitor counts, wait
times, and demographic information for each of the tiers.

Table 4 presents our analysis of the 1,177 FO population’s highest 10 versus lowest
10 performing FOs, as well as the Top Tier versus the Bottom Tier.

                               Table 4: Analysis of 1,177 FO Population
                                 Top 10 Versus Bottom 10                      Top Tier Versus Bottom Tier
                                                                         In one region’s FOs, 47 percent was in the
                         All top 10 performing FOs were Level 1 16
                                                                         top tier, while in another region, only 9
                         offices in 3 regions, while 9 of the bottom
Location and Size                                                        percent of the FOs were in the top tier.
                         10 performing FOs were Level 2 offices in
                                                                         One region had the largest percent of its
                         7 of SSA’s 10 regions.
                                                                         FOs in the bottom tier at 43 percent.
                                                                         Top performing offices in Tier 1 cleared
                         On average, top offices cleared seven times
                                                                         approximately three times as many claims
Claims                   more claims and eight times more other
                                                                         and other services as bottom performing
                         services than the bottom offices.
                                                                         FOs in Tier 3.
                         Processing time in the top FOs was better       Average processing times for top and
                         than the bottom FOs for title II Retirement,    bottom FOs were similar except for DI,
Processing Time
                         Survivors and Health Insurance (RSHI) and       whereas Tier 1 FOs processed these
                         DI, SSI D/B, and Enumerations.                  claims faster by 2 days.
                         Visitors without an appointment waited
                                                                         Visitors without an appointment waited
                         approximately 6 minutes longer at a top
                                                                         approximately 4 minutes longer at a Tier
Visitor Counts and       10 FOs. However, we noted the top 10 FOs
                                                                         1 FO. We also noted that Tier 1 FOs had
Wait Times               had approximately 10 times more visitors
                                                                         three times as many visitors as Tier 3
                         without appointments than the bottom
                                                                         FOs.
                         10 FOs.
                                                                         Top and bottom tier FOs cleared
                         On average, top FOs cleared approximately
                                                                         approximately 350 claims per employee;
                         360 claims and 2,130 other services per
                                                                         however, top tier FOs cleared
                         employee, while bottom FOs cleared
Clearances per                                                           approximately 1,940 other services per
                         approximately 300 claims and 1,580 other
Employee                                                                 employee, while bottom tier FOs cleared
                         services. This resulted in 60 more claims
                                                                         approximately 1,670. This resulted in
                         and 550 other services cleared per employee
                                                                         270 more other services cleared per
                         in the top FOs.
                                                                         employee in the top tier FOs.
                                                                         On average, a top tier FO had
                         On average, a top FO had 52 employees with
Demographic                                                              35 employees with 14 average years of
                         13 average years of service and a bottom FO
Information -                                                            service and a bottom tier FO had
                         had approximately 9 employees with
Employees                                                                approximately 14 employees with
                         14 average years of service.
                                                                         16 average years of service.
                         Top FOs served an average population of
Demographic              549,000, ranging from 386,000 to 730,000,       Top FOs served an average population of
Information –            while bottom FOs served an average              379,000, while bottom FOs served an
Population Served        population of 81,000, ranging from 40,000 to    average population of 148,000.
                         115,000.




16
  An FO is classified as a Level 1, Level 2, or RS primarily based on the number of management staff in the office,
and its service area.



Field Office Performance (A-15-12-11290)                                                                           9
We also noted that FOs in Tier 2 generally fell in the middle for all categories we analyzed,
except for processing times for title II RSHI and title XVI SSI D/B. For these two areas, Tier 2
FOs performed better than Tier 1 and 3 FOs.

Analysis of 32 FO Population
We evaluated 32 FOs separately because a card center assisted with their enumerations
workload. Based on the results of our methodology for our second population of 32 FOs, we
determined the top and bottom 3 performing FOs. Refer to Table E–4 in Appendix E, which
displays workload, processing time, visitor counts, wait times, and demographic information for
each of the six FOs.

In addition to analyzing the average performance of the highest and lowest 10 FOs, we separated
the 32 FO populations into the following tiers.

1. Tier 1 – FOs in the top half of the population for all 3 data sources, 17 which resulted in
   10 FOs;

2. Tier 3 – FOs in the bottom half of the population for all 3 data sources, which resulted in
   11 FOs; and

3. Tier 2 – the remaining 11 FOs.

Refer to Table E–5 in Appendix E, which displays the average workloads, processing times,
visitor counts, wait times, and demographic information for each of the tiers.

Table 5 presents our analysis of the 32 FO populations’ top 3 versus bottom 3 FOs as well as the
Top Tier versus the Bottom Tier.




17
 As previously stated, the three data sources were DOWR, MI Central Processing Time Reports, and MI Central
Customer Service Record Reports



Field Office Performance (A-15-12-11290)                                                                      10
                                       Table 5: Analysis of 32 FO Population
                                     Top Three Versus Bottom Three                   Top Tier Versus Bottom Tier
                                    The top three performing FOs were Level 1
                                                                                  Approximately 45 percent of one region’s
                                    offices located in two regions. Two of the
Location and Size                                                                 FOs was in the top tier. Two regions had 50
                                    three bottom performing FOs were Level 2
                                                                                  percent of their FOs in the bottom tier.
                                    offices in one region. 18
                                    On average, top offices cleared               Top performing offices in Tier 1 cleared
                                    three times more claims and four times        approximately twice as many claims and
Claims
                                    more other services than the bottom           other services as bottom performing
                                    offices.                                      offices in Tier 3.
                                                                                  Average processing times for top and
                                    Title II DI processing times in top offices
                                                                                  bottom offices were similar except for DI,
Processing Time                     was better than the bottom offices by
                                                                                  where Tier 1 offices processed these
                                    nearly 5 days.
                                                                                  claims faster by approximately 3 days.
                                    Visitors without an appointment waited
                                                                                  Visitors with(out) an appointment waited
                                    approximately 4 minutes longer at a top
                                                                                  approximately the same amount of time at
Visitor Counts and Wait             three office. However, we noted the top
                                                                                  a top or bottom tier office; however, top
Times                               three offices had approximately three
                                                                                  tier offices had approximately twice as
                                    times more visitors without appointments
                                                                                  many visitors as bottom tier offices.
                                    than the bottom three FOs.
                                    Top offices on average cleared
                                                                                  Top offices on average cleared
                                    approximately 390 claims and
                                                                                  approximately 360 claims and 1,500 other
                                    2,000 other services per employee, while
                                                                                  services per employee, while bottom
                                    bottom office employees cleared
                                                                                  office employees cleared approximately
Clearances per Employee             approximately 310 claims and
                                                                                  325 claims and 1,040 other services. This
                                    1,200 other services. This resulted in
                                                                                  resulted in 35 more claims and 460 more
                                    80 more claims and 800 more other
                                                                                  other services cleared per employee in the
                                    services cleared per employee in the top
                                                                                  top offices.
                                    offices.
                                    On average, a top office had                  On average, a top tier office had
                                    48 employees with 14 average years of         48 employees with 13 average years of
Demographic Information -
                                    service, and a bottom office had              service, and a bottom tier office had
Employees
                                    approximately 21 employees with               approximately 31 employees with
                                    15 average years of service.                  17 average years of service.
                                    Top offices served an average population
                                    of 587,000, ranging from 378,000 to           Top offices served an average population
Demographic Information –
                                    826,000, while bottom offices served an       of 605,000, while bottom offices served an
Population Served
                                    average population of 284,000, ranging        average population of 404,000.
                                    from 158,000 to 509,000.

    We noted that FOs in Tier 2 generally fell in the middle for all categories we analyzed, except
    for title XVI SSI D/B processing time and the wait time for visitors without an appointment. For
    title XVI SSI D/B processing time, Tier 2 FOs took approximately 2 to 3 days longer to process
    a claim than Tier 1 or 3 FOs. Visitors without an appointment in Tier 2 FOs waited



    18
         One of these offices closed in Calendar Year 2012.



    Field Office Performance (A-15-12-11290)                                                                          11
approximately 2 to 3 minutes less than in Tier 1 or 3 FOs. In addition, we noted that Tier 2 FOs
processed approximately 147 OASI claims per employee, whereas Tier 1 and 3 FOs’ claims
processed per employee were 127 and 126, respectively.

CONCLUSIONS
Our review revealed several concerns related to the completeness, accuracy, and consistency of
data obtained, as discussed in Appendix B, as well as numerous workload reports available to FO
staff for monitoring workloads, as discussed in Appendix C. We believe SSA should review its
workload monitoring reports and determine the best source(s) for measuring and monitoring FO
performance.

SSA representatives stated that regional and area offices monitored individual FO performance
through personal contact with office managers and the significant management information
collected. Office of Operations executives stated that they monitored FO performance at a high
level, rather than at an individual office level. We believe national level monitoring would assist
the Agency with its increasing workloads and decreasing workforce. For example, through the
Agency’s increasing capacity to shift workloads between offices, monitoring at a national level
could better permit offices within a region to assist stressed offices in other regions.
Accordingly, we encourage the Agency to consider developing a more extensive nation-wide
monitoring system.

The number of individuals filing for benefits has increased, and SSA predicts it will continue
increasing by the millions. The Agency estimates that 80 million individuals, most from the
baby boomer generation, will file for benefits over the next 20 years. As workloads rise, a
greater portion of SSA’s workforce will become eligible to retire. SSA predicts that 28 to
36 percent of its workforce will retire over the next 10 years. We believe SSA needs to develop
a methodology for measuring and monitoring FO performance at the nation-wide level because
of the degree of variance noted in our analysis of top- versus low-performing FOs. We also
believe national level monitoring will assist the Agency with its increasing workloads and
decreasing workforce.

In addition, in May 2013, the Government Accountability Office (GAO) published a report 19 that
identified four key management challenges at SSA.

        · Human capital. SSA has not updated its succession plan since 2006 although the
           agency faces an ongoing retirement wave and hiring freeze which will make it
           difficult to respond to growing workload demands.
        · Disability program issues. SSA faces ongoing challenges incorporating a more
           modern concept of disability into its programs, while balancing competing needs to
           reduce backlogs of initial and appealed claims and ensure program integrity.



19
 GAO report, Social Security Administration, Long-Term Strategy Needed to Address Key Management
Challenges (GAO-13-459), May 2013.



Field Office Performance (A-15-12-11290)                                                           12
        · Information technology (IT). SSA has made strides in modernizing its IT systems to
           address growing workload demands, but faces challenges with these modernization
           efforts and correcting internal weaknesses in information security.
        · Physical infrastructure. SSA is moving toward centralized facilities management, but
           the agency lacks a proactive approach to evaluating its office structure that will
           identify potential efficiencies, such as consolidating offices.

GAO’s recommendations to SSA included (1) developing a long-term strategy for service
delivery, (2) taking steps to update its succession plan, and (3) exploring the utility and
feasibility of realigning its headquarters, regional, and FO structure. SSA agreed with GAO’s
recommendations. We believe determining the best source(s) of data for measuring and
monitoring FO performance and developing nation-wide FO performance monitoring would
assist SSA in accomplishing the recommendations in the GAO report.

We provided an initial draft report to SSA management for review. They provided the following
comments to our report.

·   The three workload areas OIG selected can be useful indicators of FO capacity and
    production as well as staffing need; however, we still do not believe they are useful as
    criteria for ranking FOs. For years, Operations used similar methods of ranking FOs, and we
    discontinued this practice as we saw it lead to unintended behavior by employees and
    managers. Ranking FOs can create a climate of competition and one-upmanship, which is
    counterproductive to our priorities of quality, accuracy, and good public service.
·   Operations does not employ any single, numeric formula for evaluating FO performance;
    rather, we use a balanced approach and consider such factors as uneven attrition, service area
    population demographics, unique workload challenges, etc., in addition to numeric
    indicators.
·   We encourage workload sharing between FOs. In these instances, offices with additional
    capacity are asked to process work for other offices that may be inundated. We use the same
    practice at the regional level, as a means of balancing service levels across Operations.
·   While Headquarters staff does not measure performance at the individual office level, we do
    continually monitor national performance goals and service indicators and look for outliers
    when they are not being met. There are qualitative as well as quantitative factors in the field
    that we may not be aware of at Headquarters. Management of individual offices is left to
    regional management.
·   The statement, attributed to OPSOS representatives, that we, “. . . would never look at a
    single field office and that [we] rarely look at one region,” is taken out of context. We
    regularly analyze field office-level data, in the aggregate, in order to identify trends, outliers,
    and imbalances in staff and service. During these analyses, we often identify individual
    offices with questionable, noteworthy, or surprising data and refer the issues to the regional
    offices for investigation and explanation. What we don’t do is target individual offices for
    in-depth analysis at Headquarters. (After receiving SSA’s comments we deleted the
    reference statement from the draft report.)



Field Office Performance (A-15-12-11290)                                                             13
·   An FO that processes the most claims (or other work) per employee should not necessarily be
    considered a high performing office. Depending on other relevant factors, it may be an
    indication that the office is understaffed. If the employees in an understaffed FO are
    processing claims (or other workloads) at an unusually fast rate, it may raise concerns about
    quality and accuracy, rather than indicate outstanding performance.
·   Even prior to the freeze, staffing imbalances have occurred over time, with less turnover in
    rural rather than urban offices, as OIG cited many of our employees have worked for SSA for
    a good number of years.
·   To balance service, we continue to increase the number of services available online. We
    currently offer online claims filing to meet the changing needs of the public and address
    significant increases in our retirement and disability claims. In addition, we implemented
    My Social Security, a secure Website that authenticates the identity of people interested in
    conducting business with us via the Internet. In May 2012, we released the online Social
    Security Statement using My Social Security. In January 2013, we expanded My Social
    Security to allow individuals to request a benefit verification letter online, as well as change
    their address and direct deposit information. With our online services, we are making it
    easier for people to do their business with us from the comfort of their home, office, or a
    library, without the need to come into a field office.
·   Due to our restrictive budget, Social Security instituted a staffing freeze at the beginning of
    FY 2011, and the Agency has since lost nearly 10,000 people overall, most of whom are
    from frontline service components. These losses are not balanced across FOs, as data show
    some offices have lost 50 percent of their employees while others have lost significantly
    fewer. We have implemented strategies to help struggling offices to maintain service
    levels. For instance, we are moving electronic workloads between offices, we employ video
    service delivery where feasible, and we have placed temporary employees in some
    offices. We have also consolidated offices where it made sense to do so and closed many of
    our contact and resident stations. Additionally, we continue to identify and share best
    practices across area and regional lines—we specifically look for opportunities to continue to
    leverage the portability of our work, promote collaboration, and maximize our employees’
    knowledge and expertise.
·   Generally, shifting employees between offices is not, and has not been, a viable strategy for
    the Agency. Within our current budget, we are limited in our ability to fund employee details
    or relocation actions (which is required by law when we ask people to move for the benefit of
    the government).

RECOMMENDATIONS
Based on our review, we determined that SSA should

1. Identify the most accurate, complete, and reliable data source(s) for Agency workload count
   and processing time data, and ensure that all Agency components are using the same
   source(s) for reporting purposes.




Field Office Performance (A-15-12-11290)                                                           14
2. Develop a methodology for measuring and monitoring nation-wide FO performance to
   ensure accurate, consistent, and timely customer service.

AGENCY COMMENTS
SSA agreed with our recommendations. However, the Agency expressed concerns about (1) the
overall concept of nationally ranking offices, and (2) our definition of “performance.”
Specifically, SSA stated that we did not clearly define “performance” in the report, but that we
appear to base performance on volume and speed of work produced. Additionally, SSA stated

        The fact that you deemed larger offices as “higher performing” suggests that
        you defined high performance as a function of size and volume when there are
        many other factors involved. Instituting a national ranking approach would be
        counterproductive to the environment that we work to develop. In an era of
        staffing losses, without adequate replacement hires, we need to assess our
        resources and the capacity to perform work globally. Physical location and
        office size should not be factors when comparing performance. We do agree
        that managers, particularly new managers, should have an agreed upon primary
        source for workload tracking and performance reporting.

For the full text of the Agency’s comments, see Appendix F.

We are pleased SSA agreed with our recommendations, but continue to believe the methodology
we used to evaluate FO performance successfully identified instances of outlying performance
that may need Agency attention. We met with SSA officials often during the course of this
review and obtained their concurrence on our methodology. Additionally, the Background
section of our report and Appendix D provide detailed explanations about the SSA workloads we
selected for review and how we defined FO performance. Although the SSA officials who
originally agreed with this approach are no longer with the Agency, we did obtain their input on
our audit. In fact, we tailored certain aspects of our audit to meet the requests of those Agency
representatives. We understand the Agency’s reluctance in ranking its offices. However, we
believe this approach provided valuable information on a national level that will help SSA
identify performance trends and training needs as well as best practices that may be helpful
nationwide.




Field Office Performance (A-15-12-11290)                                                       15
                                      APPENDICES




Field Office Performance (A-15-12-11290)
Appendix A – SOCIAL SECURITY ADMINISTRATION
             ORGANIZATIONAL CHART




Field Office Performance (A-15-12-11290)      A-1
Appendix B – DATA RELIABILITY
Observations Noted During Field Office Count Reconciliation
We obtained a list of all Social Security Administration (SSA) field offices (FO) as of the end of
Fiscal Year (FY) 2011, which identified whether the office was a Level 1, Level 2, or resident
station (RS). 1 We also obtained a list from the Office of Public Service and Operations Support
(OPSOS) that showed the number of employees at the FOs as of the end of FYs 2010 and 2011.
Using this information, we observed the following issues.

1. OPSOS originally informed us that 1 FO had 12 employees as of the end of FY 2011. Upon
   further review, we learned that this FO had closed in September 2006.

2. OPSOS originally classified one office as an FO/2 as of the end of FY 2011, but this FO
   actually closed in May 2007 and continued operating as a contact station until May 2011,
   when it permanently closed.

Observations Noted During Merger of Management Information
Data
We obtained FO workload data sources, as of the end of FY 2011, from a number of the
Agency’s Management Information (MI) systems, such the SSA Unified Measurement
System/Managerial Cost Accounting System (SUMS/MCAS) MI Central System and the District
Office Workload Report (DOWR). In addition, OPSOS also provided a list of closed FOs from
the end of FY 2002 through FY 2012. Using these data and the listings obtained for the FO
Count Reconciliation above, we used audit software to merge the data sources for each FO.
Using this information, we observed the following issues.

1. For one FO, OPSOS stated that it had one employee as of the end of FY 2011. We were
   unable to find any DOWR or other MI workload data related to this office. Since this office
   did not close until September 2012, we expected there to be some workload count data
   related to this office in FY 2011.

2. We identified 33 FOs and 4 RSs, which OPSOS identified as closed before the beginning of
   FY 2011, that had DOWR counts and/or other MI data as of the end of FY 2011.

                a. In 32 of the 33 closed FOs and all 4 of the RSs, we observed DOWR workload
                   counts ranging from 1 to 75 cleared cases.

                b. In 10 of the 33 closed FOs, we observed workload count information in the
                   Agency’s MI Central system.



1
    An FO is classified as a Level 1, Level 2, or RS primarily based on the number of management staff in the office.



Field Office Performance (A-15-12-11290)                                                                           B-1
                         i. For example, in two FOs, we observed processing time counts related to
                            title II DI claims for FY 2011. In one of these FOs, we identified a claim
                            that had overall processing time in excess of 5,000 days (approximately
                            13.7 years).

                        ii. In another example, we identified four FOs reporting seven title XVI
                            Blind/Disabled claims with average FO processing time in excess of
                            1,000 days (approximately 2.7 years).

In addition, SSA had over 30 RSs nationwide as of the end of FY 2011; however, workload
information related to these offices was inconsistently applied and tracked in MI systems.

Observations Noted During Reconciliation Attempts at FOs
During the fieldwork phase of our review, we visited 14 FOs in 5 SSA regions. 2 Before our
visits, we extracted workload count information from SSA MI Central systems, such as
SUMS/MCAS and DOWR. We used these data at each of the FOs and asked staff to provide
reports from their systems that could be used to verify and validate the MI data. Some FOs were
only able to provide us the same copies of MI reports, while other offices were able to provide
data and reports from other systems. For example, to assist with verifying the number of visitors
to the office, the majority of FOs was able to use the Visitor Intake Process system to pull a
report that showed the number of visitors. Some of the other systems/reports that FO staff used
to assist us, and the corresponding workload they supported, were as follows.

                                      Table B–1: FO Workload Reports
                   Workload                                         System/Report
                                                ·    Workload Management Information Summary and
           Title II and XVI Claims
                                                     Detail Reports
                                                ·    MIVision: National RZ Volume Tracker
           Redeterminations
                                                ·    StaRZs and StriPEs
           Continuing Disability                ·    eWork
           Reviews (CDR)                        ·    CDR 2000
                                                ·    Workload Management Information Daily Internet
                                                     Claims Report
           iClaims
                                                ·    Workload Management Information Detail Report
                                                ·    Kansas City National iClaim Report

For the enumeration workload, FO staff was not able to access any reports from their Social
Security Number Application Process program that showed completed or cleared cases.
Subsequent to our review, SSA stated, “The Social Security Number Application Process


2
    We also visited the five corresponding regional offices (RO).



Field Office Performance (A-15-12-11290)                                                              B-2
(SSNAP) provides information to FO users for pending cases; that is, cases that have not been
successfully processed through the batch process. Cases that are ready for batch processing are
assigned a status of ‘cleared.’ These cases are available in SSNAP for online viewing. After
successful overnight processing, cases are assigned a status of ‘cleared processed’ or ‘CP’ and
are no longer available for online viewing. The Enumeration Application Retrieval System
(EARS), which can be accessed through SSNAP, can provide information for ‘CP’ cases on an
SSN or reference number basis.”

We also noted for the overpayment workloads, FOs did not have access to any reports that listed
overpayment actions that had been completed or cleared. The systems used to work
overpayments—NY Debt Management (for title II) and ChiNet SSI Diary Workload Control
Application (for title XVI)—only showed FOs pending overpayments. Based on discussions
with FO supervisors and managers, this made it difficult for them to review and provide
feedback on their employees’ overpayment work.

When we compared DOWR and MI reports to reports provided in the 14 FOs, we noted a
number of numerical differences between workload counts related to title II and XVI claims,
RZs/LIs, CDRs, iClaims, and FO visitor counts. We asked staff at SSA Headquarters to assist us
with reconciling these differences. Staff was able to reconcile the workload count differences for
the following.

·   Visitor counts and left without service counts at three FOs.
·   Title II OASDI Claim completion and cleared cases counts at one FO. 3

Management Reports Available to FOs, ROs, and Headquarters Staff
When we visited the five ROs, we met with Center for Automation staff. Staff members
provided a list of the reports management used to monitor how offices were performing at the
FO and RO levels. We have provided an example of the reports available to management from
one of the ROs we visited in Appendix C.

We noted that the list of reports in Appendix C did not have a separate category for the Agency’s
iClaims workload. Using information we obtained during visits to the FOs, ROs, and SSA
Intranet sites, we compiled a list of the management reports available for monitoring the iClaims
workload, as shown below 4




3
 SSA stated, “[Headquarters] HQ staff reconciled data for these few FOs only, in an effort to explain the data
differences to the auditors. Due to resource constraints, HQ staff did not attempt to reconcile data for each of the
FOs where auditors identified data differences.”
4
  The list contains reports that we observed during our review and may or may not include all reports available to
staff for iClaim monitoring.



Field Office Performance (A-15-12-11290)                                                                               B-3
                                 Table B–2: iClaims Workload Reports
                                        Report                      Host
                      eServices MI Report                     MI Central
                      Title II DIB Internet Processing Time   Philadelphia
                      eService Initial Title II Claims
                                                              Boston
                      Summary
                      National eServices Report, Internet
                                                              Kansas
                      Disability Report
                      National iClaim Report                  Kansas
                      RIB/SPO Internet and Non-Internet
                                                              Chicago
                      Receipts
                      First Party iClaim Workload
                                                              Chicago
                      Management Information Listing
                      Third Party iClaim Workload
                                                              Chicago
                      Management Information Listing
                      Non-Imported Internet Claims            San Francisco
                      Internet Receipts for the Week Ending   San Francisco
                      Evergreen Weekly                        Denver
                      Title II Workload Management
                                                              New York
                      Information Initial Claims Reports
                      Localized MI Report (for Historical     Office of
                      iClaims information FY 2011 and         Electronic
                      earlier)                                Services

Implemented nationally in January 2009, iClaims is a relatively new program to SSA. We have
concerns that there are already a large number of different reports to track this workload.

During our review, we noted that the purpose of MI Central was to, “. . . facilitate access to
management information and workload control reports by providing a Central location where
employees can obtain information on SSA workloads and by presenting that information with a
consistent look and feel.” 5 As shown in Appendix C, SSA staff relied on a number of reports,
developed outside MI Central, for workload information. We noted that workload count data
may vary from report to report. We were not able to determine whether the differences between
these reports had been documented or why there was a need for numerous reports related to one
workload. In addition, we were unable to determine which report would give us the most
complete and accurate data to analyze FO performance.




5
    MI Central Online User Guide, Background.



Field Office Performance (A-15-12-11290)                                                    B-4
During discussions with various SSA components, there were disagreements over which reports
showed “Official Agency Data.” One component stated that DOWR was the best source of data,
while another component stated that Workload Management Information was the best source.
Staff stated that workload processing data amounts could be different depending on which
component is asked, when it is asked, and how the question is asked. Agency representatives
stated that they would not expect FO or regional management to give the same answer to the
same question about workload performance because different levels of management use different
sources of information to fulfill their intended purpose.

In addition, we noted that workload counts in MI Central may conflict. For example, there are
two enumeration performance reports in MI Central, one is the “Workload” report and the other
is the “Issuance of Social Security Number” report. If a user were to look at the completed
enumerations on each of the reports, they would get two different completed counts. While these
reports are both classified as performance reports in MI Central, SSA stated, “. . . [they are] used
to measure different things.” Since the reports measure and report different things, it can be
confusing to users which amount is complete and accurate. Although SSA management
requested we use specific sources of data, we were not able to determine if the data used were
reliable, complete, and accurate. Further, if another source of data were used, the results may or
may not have been different.




Field Office Performance (A-15-12-11290)                                                        B-5
Appendix C – MANAGEMENT MONITORING REPORTS
In July 2012, staff in the Center for Automation, for one of the regional offices that we visited,
provided the listing of reports they use to monitor workloads. The listing may or may not
include all reports available to staff for workload monitoring. In addition, report names may be
listed multiple times because they may be used to monitor one or more workloads.

 Performance Reports are used to monitor various customer
 service topics
 Performance Reports                                                  Updated      Hosted
                                                                                   Management
 Customer Service Record (CSR)                                        Weekly       Information (MI)
                                                                                   Central
 CSR Visits                                                           Monthly      San Francisco
 Field Office Network Enterprise (FONE) Agent Que Report              Daily        Philadelphia
 Video Service Delivery                                               Weekly       San Francisco
 Visitor Intake Process (VIP) Trend Report                            Monthly      Philadelphia
 Title II Non-Imported Internet Applications by Age                   Daily        San Francisco
 Localized MI - National Report on Title II Claims                    Weekly       MI Central
 Internet Social Security Benefit Application (ISBA) Disability
                                                                      Monthly      Kansas City
 Insurance Benefits (DIB) MI
 ISBA/Immediate Claims Taking Unit (ICTU) MI                          Monthly      Kansas City
 Post Entitlement (PE) Internet Events                                Weekly       San Francisco
 Self Help Personal Computer Usage Report                             Weekly       San Francisco
 Productivity Reports are for workload measurement
 Productivity Reports                                                 Updated      Hosted
 Integrated Social Security Unified Measurement System (SUMS)
                                                                      Weekly       MI Central
 Counts
 District Office Workload Report (DOWR) Report                        Weekly      Legacy MI
 Staffing and Hours Reports                                           Weekly      Legacy MI
 Reg. Shares of Completed Work and Demographics                       Monthly     Dallas
 San Francisco (SF) Region Unit-Level Summary Report                  Monthly     San Francisco
                                                                      Cumulative through fiscal year
 Work Factors (National, Regional, 50/50)
                                                                      (FY)
 District Office Workload Sampling (DOWS) Reports are used to
 view information about work sampling
 DOWS Reports                                                         Updated      Hosted
 DOWS Reports                                                         Monthly      Legacy MI
 DOWS Schedule by Office                                              FY           Legacy MI
 DOWS Schedule by Region                                              FY           Legacy MI
 DOWS Non Reporters                                                   Weekly       Legacy MI
 DOWS Errors                                                          Daily        Legacy MI




Field Office Performance (A-15-12-11290)                                                           C-1
 Profile Reports are used to monitor field office visitor totals and
 service area beneficiaries and recipients
 Profile Reports                                                        Updated      Hosted
 Recipient-in-force/Beneficiary-in-force Quarterly and Direct Deposit   Quarterly/
                                                                                     San Francisco
 Monthly Reports                                                        Monthly
 Appointment/800 Number                                                 Monthly      San Francisco
 Appointment Tracking System                                            Weekly       Chicago
 Appointments and Visitors Reports                                      Weekly       MI Central
 Title II Claims Reports are used to track processing times and
 claims status
 Title II Claims Reports                                                Updated      Hosted
 Title II Initial Claims Processing Time Reports                        Weekly       MI Central
 Title II Disability Claims Status Report                               Weekly       San Francisco
 Title II Disability Processes                                          Monthly      San Francisco
 Title II Unsigned Applications Report                                  Monthly      San Francisco
 Supplemental Security Income (SSI) Claims Reports are used to
 track processing times and claims status
 SSI Claims Reports                                                     Updated      Hosted
 SSI Disability Process Indicators                                      Monthly      San Francisco
 SSI Initial Claims Report                                              Weekly       MI Central
 SSI Disabled/Blind (D/B) Claims Status                                 Weekly       San Francisco
 SSI Claims Returned from Disability Determination Services (DDS)       Weekly       San Francisco
 SSI Unsigned Applications Report                                       Monthly      San Francisco
 Title II Claims Listings provide lists of Title II processing times
 Title II Claims Listings                                               Updated      Hosted
 Title II Processing Time Listing                                       Weekly       MI Central
 Title II Processing Time Social Security Number Query                  Weekly       MI Central
 The SSI Appeals report provides tracking of SSI appeals
 SSI Appeals                                                            Updated      Hosted
 SSI Administrative Law Judge (ALJ) Reversals                                        Atlanta




Field Office Performance (A-15-12-11290)                                                             C-2
 Combined Reports consists of a variety of reports regarding
 workload and processing time for Title II and SSI
 Combined Reports                                                    Updated   Hosted
 Area and Regional Comparative Trend for Initial Claims (I/C)        Monthly   San Francisco
 Monthly DIB Claims Processing Time and Shortfall Reports            Monthly   San Francisco
 Title II and Title XVI Initial Claims Workload Reports              Weekly    San Francisco
 SF Region Pending Appeals Report                                    Weekly    San Francisco
 Title II/SSI Claims Processing Time Tracker                         Monthly   Denver
 Fast Track Disability Processing Time                               Weekly    MI Central
 Strategic Performance Plan - Timeliness/Comb Processing Time        Monthly   Chicago
 Electronic Disability Collect System (EDCS) Action Items Report     Weekly    San Francisco
 Disability Determination Services Query (DDSQ) System Override
                                                                     Weekly    San Francisco
 (SO) - Y
 Department of Public Social Services (DPSS) Claims Status Report    Monthly   San Francisco
 Dallas Appeals Counter                                              Daily     Dallas
 Redetermination (RZ) and Limited Issue (LI) Reports provide
 information on RZ/LI counts
 RZ and LI Reports                                                   Updated   Hosted
 RZ/LI Reports                                                                 Legacy MI
 SSI RZ Agency Counts by Status for Sources                                    Legacy MI
 National SSI RZ Volume Tracker                                      Weekly    Denver
 RZ and LI Listings provide lists of RZ/LI claims
 RZ and LI Listings                                                  Updated   Hosted
 RZ/LI Listings                                                      Weekly    MI Central
 RZ/LI Social Security Number, Internal Revenue Service (IRS), and
                                                                     Daily     MI Central
 Supplemental Security Income Display (SSID) Queries
 SSI Reports include a variety of reports related to SSI claims
 SSI Reports                                                         Updated   Hosted
 SSI Diary Workload                                                  Weekly    Chicago
 SSI Critical Diary Report                                           Weekly    San Francisco
 SSI Monthly Wage Reporting Report                                   Monthly   San Francisco
 SSI Monthly Wage Verification MI Reports                            Monthly   New York
 SSI Terminated Windfall Offset Report                               Weekly    San Francisco
 SSI Overpayment Diaries/Recipient in Force Report                   Weekly    San Francisco
 SSI Representative Payee Suspense Report                            Monthly   San Francisco
 SSI Telephone Wage Reporting MI                                     Monthly   New York
 SSI Unverified Wages                                                Monthly   San Francisco
 SSI Monthly Wage Verification Version 2.2                           Monthly   Boston




Field Office Performance (A-15-12-11290)                                                       C-3
 SSI Listings provide lists for various SSI claims
 SSI Listings                                                   Updated     Hosted
 SSI Force Pay                                                  Monthly     San Francisco
 SSI Force Pay                                                  Quarterly   New York
 SSI New Overpayment Control Listings                           Monthly     San Francisco
 SSI Overpayment Diary Follow-up Listings                       Monthly     San Francisco
 SSI Unpaid Start Date Records                                  Monthly     San Francisco
 SSI Age 62 Attainment                                          Quarterly   San Francisco
 Title XVI Priority Exception 5th Follow-up                                 San Francisco
 Continuing Disability Review (CDR) Reports provide various
 reports on multiple CDRs
 CDR Reports                                                    Updated     Hosted
 CDR-m Weekly Clearances to DDS                                 Weekly      San Francisco
 Age 18 CDRs                                                    Monthly     San Francisco
 Low Birth Weight CDRs                                          Monthly     San Francisco
 Pending CDRs                                                   Weekly      San Francisco
 Aged Work CDRs                                                 Weekly      San Francisco
 Disability Control File (DCF) eWork Push Failed                            San Francisco
 eWork Effectuation of the Decision (DECEFFECT) Alerts Report               San Francisco
 Pending Expedited Reinstatements (EXRs)                        Monthly     San Francisco
 PC Enforcement Work CDRs                                                   San Francisco
 Special Release Title XVI Childhood CDRs                                   San Francisco
 CDR Listings provide lists for CDR cases
 CDR Listings                                                   Updated     Hosted
 Medical CDR Reports                                            Weekly      Philadelphia
 CDR Listings                                                   Daily       MI Central
 CDR Social Security Number Query                               Daily       MI Central
 Death Alerts tracks pending death alerts and cleared alerts
 Death Alerts                                                   Updated     Hosted
 Death Alert Tracking System                                                Philadelphia
 Debt Management reports include a link to the New York (NY)
 Debt Management Program, waivers and personal conferences,
 and earnings corrections
 Debt Management                                                Updated     Hosted
 New York Debt Management Program                               Daily       New York
 Waiver and Personal Conference Report                          Monthly     San Francisco
 Earnings Modernization (EM) 2.8                                Daily       Philadelphia
 Title II Waivers and Personal Conference Report                Weekly      Philadelphia




Field Office Performance (A-15-12-11290)                                                    C-4
 Other Reports cover a wide variety of reports for the region, such
 as payee suspense, special veterans benefits, centenarian, etc.
 Other Reports                                                        Updated   Hosted
 Modernized Development Worksheet (MDW) Summary Report                Weekly    San Francisco
 Title II Rep Payee Suspense Report                                   Monthly   San Francisco
                                                                                Executive and
                                                                                Management
 Prisoner Alerts                                                      Monthly
                                                                                Information System
                                                                                (EMIS)
 Prisoner Updated Processing System (PUPS)/Representative Payee
                                                                                Philadelphia
 System (RPS)
 Single Payment System                                                Monthly   EMIS
 Special Veterans Benefits - Title VIII                               Weekly    San Francisco
 Earned Income (EN) Ticket Payment Cases over 30 Days Old             Monthly   San Francisco
                                                                      Semi-
 Widow(er)’s Insurance Benefit (WIB)/RIB SSI Project                            San Francisco
                                                                      Annual
                                                                      Semi-
 WIB/RIB Project                                                                San Francisco
                                                                      Annual
 Earnings Annual Wage Report (AWR) Counts                             Daily     Legacy MI
 Earnings AWR Listings                                                Daily     Legacy MI
 Employer Identification Number (EIN) Query Request                   Daily     Legacy MI
 National Centenarian Project                                         Annual    San Francisco
 Enumeration reports include processing time and performance
 Enumeration                                                          Updated   Hosted
 Enumeration Processing Time                                          Weekly    MI Central
 Enumeration Performance Reports                                      Weekly    MI Central




Field Office Performance (A-15-12-11290)                                                        C-5
Appendix D – SCOPE AND METHODOLOGY
To accomplish our objective, we:

·   Interviewed staff and gathered workload data from 14 SSA field offices (FO) and 5 regional
    offices (RO).
·   Gathered workload information from Social Security Administration (SSA) sources for
    Fiscal Year (FY) 2011.

            o From the District Office Workload Report (DOWR) cleared count report, we
              analyzed the following workloads (1) title II Old-Age and Survivors Insurance
              (OASI), (2) title II Disability Insurance (DI), (3) title XVI Supplemental Security
              Income (SSI) Disabled/Blind (D/B), (4) title II and XVI Status Changes and
              Benefit Verifications, and (5) Enumerations.

            o From the Processing Time from Management Information (MI) Central report, we
              analyzed the following workloads (1) title II Retirement, Survivors and Health
              Insurance (RSHI) Timeliness percent, (2) title II Disability Insurance Beneficiary
              (DIB) FO Time in Days, (3) title XVI D/B FO Time in Days, and
              (4) Enumeration FO Time in Days.

            o From the Visitor counts [provided by Office of Public Service and Operations
              Support (OPSOS) from the Customer Service Record (CSR) Operational
              Datastore (ODS)] and Wait Time (from MI Central) reports, we analyzed the
              following types of visitors (1) with appointment, and (2) without appointment.

            o 2010 Population and Median Household Income from a Geospatial report
              produced by the Office of Electronic Services based on 2010 census data.

            o Average Recipient/Beneficiary payment amounts for SSI and Old-Age, Survivors
              and Disability Insurance (OASDI) beneficiaries as of September 2011 from
              SSA’s Quarterly Recipient in Force/Beneficiary in Force reports.

            o Number of SSI recipients and OASDI beneficiaries as of September 2011 from
              the Quarterly Recipient in Force/Beneficiary in Force reports.

            o Staff demographics provided by OPSOS: (1) FYs 2011 and 2012 FO staff
              average years of service, (2) FYs 2011 and 2012 FO staff average salary, and
              (3) counts of FO staff as of the end of FYs 2010 and 2011. (Note: We computed
              the average number of FO staff in 2011 based on staff counts provided for FYs
              2010 and 2011.)




Field Office Performance (A-15-12-11290)                                                       D-1
·     Determined our FO populations.

               o FOs excluded from our analysis included offices (1) closed in FYs 2011 or 2012, 1
                 (2) reclassified as a resident station in 2012, and (3) located outside the 50 United
                 States (in Puerto Rico, Guam, American Samoa, the Virgin Islands, and the
                 Northern Mariana Islands).

               o We separated the remaining FOs into 2 populations: (1) 32 FOs that were aided
                 with the enumeration workload because of their proximity to a card center and
                 (2) 1,177 remaining FOs (our main population).

·     Developed a methodology for reporting FO performance.

               o Used workload data from the following sources (1) DOWR, (2) MI Central
                 Processing Time, and (3) MI Central Customer Service Record reports, as stated
                 above.

               o Calculated a FO order for each workload based on the FO’s workload count,
                 percent of workload to the total population, workload per average employee, and
                 the processing time/wait time amounts, as applicable. The results of each of these
                 formulas was a factor from 1 (highest performing office) to 1,177, (lowest
                 performing office) or 1 to 32, for our second population.

               o Within each source, we weighted the workload count by FO. For example, if a
                 FO cleared more title II DI claims than Title XVI SSI D/B claims, then its score
                 for title II DI claims counted more towards its overall score by source.

               o Our result was a score in each of the three data sources.

·     Developed a presentation methodology.

               o To determine the top and bottom 10 FOs for the 1,177 FO population, we
                 averaged the 3 data sources. The 10 FOs with the lowest score were our top 10
                 FOs and the 10 FOs with the highest score were our bottom 10 FOs. 2




1
 October 2, 2012, OPSOS provided the list of closed offices through September 2012. Subsequently, SSA informed
us of several FOs that closed during calendar year 2012.
2
    This same methodology was used for the 32 FO population.



Field Office Performance (A-15-12-11290)                                                                  D-2
                o To determine the 3 tiers for the 1,177 FO population, we determined the mid-
                  point for our population at FO number 588. Tier 1 was FOs in the top half of the
                  population for all 3 data sources (588 or less). Tier 3 was FOs in the bottom half
                  of the population for all 3 data sources (589 or more). The remaining FOs that
                  were not in Tiers 1 or 3 were grouped into Tier 2. 3

·      There were a number of workloads and other factors that we did not consider in our
       methodology. 4

                o Workload count information for the following (1) Representative Payee
                  transactions, (2) Redeterminations/Limited Issues, (3) Continuing Disability
                  Reviews, (4) Medicare and Medicaid, (5) Earnings, (6) Overpayments/Waivers,
                  (7) Appeals, etc.

                o Composition of FO staff (that is, number of managers, Operations Supervisors,
                  claims and service representatives, trainees, etc.).

                o Workload sharing.

                o Length of time (in minutes) to complete a workload.

                o Staff time in office (regular hours, overtime, credit hours, etc.).

                o Workload accuracy and quality.

                o Customer service.

We conducted our audit between March 2012 and March 2013 at SSA Headquarters in
Baltimore, Maryland, as well as at 14 FOs in 5 ROs—(1) Atlanta, (2) Denver, (3) Philadelphia,
(4) San Francisco, and (5) New York. The principal entities audited were SSA's FOs under the
Office of the Deputy Commissioner for Operations. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We tested the data obtained
for our review; please refer to Appendix B for our discussion on data reliability. We believe the
evidence obtained supports our findings and conclusions based on our audit objective. However,
if another source of data were used the results may or may not have been different.




3
    This same methodology was used for our 32 FO population, except our mid-point was FO number 16.
4
    There could be additional factors not listed that may affect FO performance.



Field Office Performance (A-15-12-11290)                                                              D-3
Appendix E – FIELD OFFICE ANALYSIS
                                       Table E–1: Top 10 Field Offices (FO) in Population of 1,177
                                      Office 1   Office 2   Office 3   Office 4   Office 5   Office 6   Office 7   Office 8   Office 9   Office 10   Average

Workload Counts1
Title II Old-Age and Survivors
                                        8,102      8,037      5,934      6,165      6,924      7,170      5,416      5,235      7,130       5,413      6,553
Insurance (OASI) Cleared Claims
Title II Disability Insurance (DI)
                                        7,090      9,628      6,876      6,773      2,977      7,765      4,341      6,246      6,972       5,864      6,453
Cleared Claims
Title XVI Supplemental Security
Income (SSI) Disabled/Blind (D/B)       5,690      7,437      7,074      6,300      3,443      6,382      3,705      7,107      6,218       5,830      5,919
Cleared Claims
Total Cleared Claims2                  20,882     25,102     19,884     19,238     13,344     21,317     13,462     18,588     20,320      17,107     18,925
Status Changes and Benefit
                                      109,707     81,814    110,629     79,456     92,650     85,396     55,891     63,381     54,740      83,944     81,761
Verifications Cleared
Enumerations Cleared                   27,044     25,144     33,061     32,920     42,198     33,603     21,145     23,407     26,707      29,331     29,456

Total Other Services Cleared3         136,751    106,958    143,690    112,376    134,848    118,999     77,036     86,788     81,447     113,275    111,217

Total Cleared Workload Counts4        157,633    132,060    163,574    131,614    148,192    140,316     90,498    105,376    101,767     130,382    130,142
Processing Time5
Title II Retirement, Survivors, and
Health Insurance (RSHI)                94.4%      92.4%      90.1%      90.9%      91.9%      87.9%      95.2%      93.9%      87.8%       92.5%      91.7%
Timeliness Percent6
Title II DI (Days)7                        7.3      10.8       15.9         8.4      13.2       15.0         6.5      11.2       16.6        16.8      12.17

Title XVI SSI D/B (Days)7                  8.0        9.6      19.1         9.5        7.4      20.5         5.8      10.5       10.4        18.8      11.96

Enumeration (Days)7                        0.5        0.2        0.6        0.9        1.7        0.6        0.4        0.4        0.7         1.3      0.73




Field Office Performance (A-15-12-11290)                                                                                                                 E-1
                                    Office 1      Office 2   Office 3   Office 4   Office 5   Office 6   Office 7   Office 8   Office 9   Office 10   Average

Visitors and Wait Time
Visitors with Appointment8            2,182         3,583      4,006      7,283      9,917     11,741      2,312      1,858      6,033       3,921      5,284
Wait Time with Appointment
                                            1.7        3.3        4.3        7.5        4.2        6.9        2.2        4.1        1.4         9.3      4.49
(Minutes)9
Visitors without Appointment8        60,191        71,743     86,789    117,508    106,571     95,750     49,065     63,395     66,240      77,063     79,432
Wait Time without Appointment
                                            6.3      10.5       24.1       18.7       22.6       27.5         8.2      14.1       18.7        13.6      16.43
(Minutes)9
FO Demographics
2010 Population10                   730,040       591,948    521,990    577,682    386,056    665,100    494,603    391,029    598,511     530,467    548,743

2010 Median Household Income10      $55,981       $41,967    $48,220    $36,261    $45,584    $42,968    $58,331    $40,752    $51,317     $46,206    $46,759
Population per Average FO
                                     12,270        10,033      9,757      9,709      6,894     10,232     13,551      8,501     14,250      11,532     10,673
Employee11
Number of Title XVI SSI
                                     10,786        12,645     15,767     22,236     28,592     19,670      7,511     17,059     10,682      16,015     16,096
Recipients12
Number of Title II OASI
                                     88,615       102,179     47,282     65,808     54,673     95,808     62,692     56,500    120,019      49,590     74,317
Beneficiaries12
Number of Title II DI
                                     20,012        28,678     13,528     19,917      7,770     25,175     12,877     15,372     19,281      11,691     17,430
Beneficiaries12
FO Employees EOY 201113                     59         56         54         58         54         64         35         44         43          46       51.3
Average FO Employees 2010 to
                                           59.5      59.0       53.5       59.5       56.0       65.0       36.5       46.0       42.0        46.0       52.3
201114
FO Staff Average Years of Service
                                            10         14         14         11         14         14         16         12         12          14       13.1
201113
FO Staff Average Salary 201113      $60,477       $62,300    $71,588    $60,102    $66,199    $61,602    $66,232    $63,185    $59,520     $69,871    $64,108




Field Office Performance (A-15-12-11290)                                                                                                                  E-2
                                         Table E–2: Bottom 10 Field Offices in Population of 1,177
                                      Office    Office    Office    Office    Office    Office    Office    Office    Office    Office
                                                                                                                                          Average
                                      1,168     1,169     1,170     1,171     1,172     1,173     1,174     1,175     1,176     1,177
Workload Counts1

Title II OASI Cleared Claims           1,573     1,218       946     1,647     1,211       686     1,448     1,001       864       765       1,136

Title II DI Cleared Claims               843       815       834     1,441     1,221       590       813       889       521       404        837

Title XVI SSI D/B Cleared Claims         573       561       737       750     1,001       457       545       556       263       431        587

Total Cleared Claims2                  2,989     2,594     2,517     3,838     3,433     1,733     2,806     2,446     1,648     1,600       2,560
Status Changes and Benefit
                                      13,037     8,305    15,985    14,690    15,098     6,694     7,096    11,835    10,196     7,088      11,002
Verifications Cleared
Enumerations Cleared                   2,845     3,488     1,645     2,595     2,584       793     3,146     3,798     2,862     2,386       2,614

Total Other Services Cleared3         15,882    11,793    17,630    17,285    17,682     7,487    10,242    15,633    13,058     9,474      13,616

Total Cleared Workload Counts4        18,871    14,387    20,147    21,123    21,115     9,220    13,048    18,079    14,706    11,074      16,176
Processing Time5

Title II RSHI Timeliness Percent6      91.5%     86.3%     95.0%     96.4%     93.2%     95.4%     89.8%     84.9%     93.7%     87.3%      91.4%

Title II DI (Days)7                      15.4      22.4       7.5      11.2      12.0       7.7      14.7      33.1      25.6      20.2      16.98

Title XVI SSI D/B (Days)7                10.3      21.9       7.0      11.9      10.2       7.5      11.5      22.1      18.8      10.2      13.14

Enumeration (Days)7                       1.0       1.1       0.8       0.8       1.5       0.1       1.0       1.6       0.5       2.3       1.07




   Field Office Performance (A-15-12-11290)                                                                                                 E-3
                                     Office      Office    Office    Office    Office    Office    Office    Office    Office    Office
                                                                                                                                           Average
                                     1,168       1,169     1,170     1,171     1,172     1,173     1,174     1,175     1,176     1,177
Visitors and Wait Time
Visitors with Appointment8              879         853       506      1,069     1,649       53       696      1,415      204       190        751
Wait Time with Appointment
                                         4.4         7.0       2.6       5.4       4.3       0.9       2.7       6.7       4.9       2.1       4.10
(Minutes)9
Visitors without Appointment8         9,017        9,385     7,474     9,748    10,797     4,537     7,153    11,765     7,811     4,746      8,243
Wait Time without Appointment
                                        15.6        10.5       6.1       6.5      13.6       2.6      10.2      25.1       8.6       6.3      10.51
(Minutes)9
FO Demographics

2010 Population10                   102,504      107,153    49,301   115,661    68,872    40,716   102,540    78,318    95,214    49,463     80,974

2010 Median Household Income10      $47,729      $44,431   $33,403   $42,634   $36,971   $33,934   $48,719   $48,085   $60,806   $70,125    $46,684
Population per Average FO
                                     12,813       14,287     4,930     8,262     5,989     5,817    13,672     9,790    11,902    10,992      9,845
Employee11
Number of Title XVI SSI
                                      1,248        1,543     1,299     2,812     2,915      726      1,277     2,816      685       943       1,626
Recipients12
Number of Title II OASI
                                     18,177       16,373     8,607    26,052    14,497     7,709    15,830    13,458    12,652     5,724     13,908
Beneficiaries12
Number of Title II DI
                                      2,722        2,765     2,185     6,421     3,930     1,636     2,494     3,826     2,244     1,080      2,930
Beneficiaries12
FO Employees EOY 201113                      8        7        10        14        11         7         7         8         9         4             9
Average FO Employees 2010 to
                                         8.0         7.5      10.0      14.0      11.5       7.0       7.5       8.0       8.0       4.5           8.6
201114
FO Staff Average Years of Service
                                         17          12        15        13        16        15        14        12        10        17            14
201113
FO Staff Average Salary 201113      $70,248      $63,191   $71,001   $63,011   $68,373   $65,153   $60,364   $68,980   $63,624   $77,282    $67,123




  Field Office Performance (A-15-12-11290)                                                                                                   E-4
                                              Table E–3: Population of 1,177 FOs in 3 Tiers
                                                                      Tier 1     Tier 2*    Tier 3**

                                      Number of FOs                       300        580         297
                                      Workload Counts1

                                      Title II OASI Cleared Claims       4,233      2,827       1,970

                                      Title II DI Cleared Claims         4,260      2,644       1,693
                                      Title XVI SSI D/B Cleared
                                                                         3,728      2,114       1,279
                                      Claims
                                      Total Cleared Claims2            12,221       7,585       4,942
                                      Status Changes and Benefit
                                                                       50,987      32,716     18,495
                                      Verifications Cleared
                                      Enumerations Cleared             16,861       8,570       4,830

                                      Total Other Services Cleared3    67,848      41,286     23,325
                                      Total Cleared Workload
                                                                       80,069      48,871     28,267
                                      Counts4
                                      Processing Time5
                                      Title II RSHI Timeliness
                                                                       90.94%     91.77%      91.38%
                                      Percent6
                                      Title II DI (Days)7                13.08      13.77       15.15

                                      Title XVI SSI D/B (Days)7          13.45      13.13       14.05

                                      Enumeration (Days)7                 0.66       0.71        0.79




Field Office Performance (A-15-12-11290)                                                                E-5
                                                                       Tier 1     Tier 2*    Tier 3**
                                      Visitors and Wait Time

                                      Visitors with Appointment8          4,140      2,685       1,745
                                      Wait Time with Appointment
                                                                           5.06       4.37        4.50
                                      (Minutes)9
                                      Visitors without Appointment8     49,530      27,402     15,861
                                      Wait Time without
                                                                          18.09      15.47       14.36
                                      Appointment (Minutes)9
                                      FO Demographics

                                      2010 Population10                379,067     226,974    147,761
                                      2010 Median Household
                                                                       $50,266     $49,817    $50,001
                                      Income10
                                      Population per Average FO
                                                                        10,830      10,317     10,554
                                      Employee11
                                      Number of Title XVI SSI
                                                                          8,432      5,156       3,021
                                      Recipients12
                                      Number of Title II OASI
                                                                        48,150      33,752     24,164
                                      Beneficiaries12
                                      Number of Title II DI
                                                                        11,532       7,980       5,542
                                      Beneficiaries12
                                      FO Employees EOY 201113               34          21         13
                                      Average FO Employees 2010 to
                                                                            35          22         14
                                      201114
                                      FO Staff Average Years of
                                                                            14          15         16
                                      Service 201113
                                      FO Staff Average Salary 201113   $65,907     $67,027    $68,060


        * Includes five FOs that closed during Calendar Year 2012. ** Includes two FOs that closed during Calendar Year 2012.




Field Office Performance (A-15-12-11290)                                                                                        E-6
                                           Table E–4: Top and Bottom 3 FOs in Population of 32
                                                          Top FOs                                                     Bottom FOs
                                     Office 1       Office 2       Office 3       Average       Office 30       Office 31*   Office 32       Average
                     1
  Workload Counts

  Title II OASI Cleared Claims              5,615       4,762         11,014          7,130          5,185           1,539          1,751       2,825

  Title II DI Cleared Claims                7,184       3,780          8,518          6,494          3,490             904          2,133       2,176
  Title XVI SSI D/B Cleared
                                            5,951       3,022          6,838          5,270          2,095             667          2,035       1,599
  Claims
  Total Cleared Claims2                    18,750      11,564         26,370         18,895        10,770            3,110          5,919       6,600
  Status Changes and Benefit
                                       156,507         56,662         76,933         96,701        38,605           12,250         25,372      25,409
  Verifications Cleared
  Enumerations Cleared                          -              -              -             -               -            -               -             -

  Total Other Services Cleared3        156,507         56,662         76,933         96,701        38,605           12,250         25,372      25,409
  Total Cleared Workload
                                       175,257         68,226        103,303        115,595        49,375           15,360         31,291      32,009
  Counts4
  Processing Time5
  Title II RSHI Timeliness
                                           92.9%       89.6%          86.4%         89.63%          92.7%           93.4%          86.6%       90.90%
  Percent6
  Title II DI (Days)7                         7.1        10.5           14.6          10.73           19.3             7.1           20.1       15.50

  Title XVI SSI D/B (Days)7                   7.0        11.8           21.8          13.53           15.7             6.2           13.8       11.90

  Enumeration (Days)7                           -              -              -             -               -            -               -             -




Field Office Performance (A-15-12-11290)                                                                                                               E-7
                                                        Top FOs                                   Bottom FOs
  Visitors and Wait Time
  Visitors with Appointment8                8,525     5,627         4,486     6,213     2,526     1,595         2,341     2,154
  Wait Time with Appointment
                                              3.8      11.1           4.7      6.53       3.0       7.4          10.2      6.87
  (Minutes)9
  Visitors without Appointment8            59,914    51,958        68,439    60,104    22,966    16,248        29,758    22,991
  Wait Time without
                                             20.1      24.1          24.7     22.97      14.0      13.6          28.2     18.60
  Appointment (Minutes)9
  FO Demographics
  2010 Population10                    377,798      557,197       826,443   587,146   509,063   158,085    187,320      284,823
  2010 Median Household
                                       $50,279      $54,227       $57,146   $53,884   $62,811   $48,906    $39,621      $50,446
  Income10
  Population per Average FO
                                            6,628    22,288        13,330    14,082    14,972    14,371        10,407    13,250
  Employee11
  Number of Title XVI SSI
                                           18,902    19,006        14,889    17,599     4,398     3,455        10,089     5,981
  Recipients12
  Number of Title II OASI
                                           45,257    39,646       110,108    65,004    76,210    14,833        16,537    35,860
  Beneficiaries12
  Number of Title II DI
                                           12,115     8,722        21,328    14,055    13,582     2,565         5,071     7,073
  Beneficiaries12
  FO Employees EOY 201113                     56        23            60        46        32        10            15        19
  Average FO Employees 2010 to
                                              57        25            62        48        34        11            18        21
  201114
  FO Staff Average Years of
                                              11        21            10        14        11        20            14        15
  Service 201113
  FO Staff Average Salary 201113       $64,308      $80,634       $60,142   $68,361   $61,538   $70,194    $78,249      $69,994


* This FO closed during Calendar Year 2012.




Field Office Performance (A-15-12-11290)                                                                                      E-8
                                               Table E–5: Population of 32 FOs in 3 Tiers
                                                                      Tier 1       Tier 2       Tier 3*

                                      Number of FOs                        10           11            11
                                      Workload Counts1

                                      Title II OASI Cleared Claims       6,104        5,434        3,921

                                      Title II DI Cleared Claims         6,139        4,634        3,445
                                      Title XVI SSI D/B Cleared
                                                                         5,111        3,673        2,687
                                      Claims
                                      Total Cleared Claims2            17,354       13,741        10,053
                                      Status Changes and Benefit
                                                                       73,836       50,284        32,344
                                      Verifications Cleared
                                      Enumerations Cleared                     -            -             -

                                      Total Other Services Cleared3    73,836       50,284        32,344
                                      Total Cleared Workload
                                                                       91,190       64,025        42,397
                                      Counts4
                                      Processing Time5
                                      Title II RSHI Timeliness
                                                                       89.96%       89.31%       90.14%
                                      Percent6
                                      Title II DI (Days)7                13.39        15.55        16.15

                                      Title XVI SSI D/B (Days)7          13.18        16.00        14.02

                                      Enumeration (Days)7                      -            -             -




Field Office Performance (A-15-12-11290)                                                                      E-9
                                                                       Tier 1     Tier 2     Tier 3*
                                      Visitors and Wait Time

                                      Visitors with Appointment8          5,934      4,666      3,499
                                      Wait Time with Appointment
                                                                           6.60       6.81       7.06
                                      (Minutes)9
                                      Visitors without Appointment8     56,769     38,663      30,410
                                      Wait Time without
                                                                          23.76      20.98      22.76
                                      Appointment (Minutes)9
                                      FO Demographics

                                      2010 Population10                604,647    551,708     403,563
                                      2010 Median Household
                                                                       $53,991    $54,626     $52,201
                                      Income10
                                      Population per Average FO
                                                                        12,597     14,911      13,018
                                      Employee11
                                      Number of Title XVI SSI
                                                                        13,739       9,593      9,448
                                      Recipients12
                                      Number of Title II OASI
                                                                        67,111     64,052      48,211
                                      Beneficiaries12
                                      Number of Title II DI
                                                                        15,956     13,144      10,099
                                      Beneficiaries12
                                      FO Employees EOY 201113               46         37          29
                                      Average FO Employees 2010 to
                                                                            48         37          31
                                      201114
                                      FO Staff Average Years of
                                                                            13         15          17
                                      Service 201113
                                      FO Staff Average Salary 201113   $68,085    $68,507     $72,620


* Includes one FO that closed during Calendar Year 2012.




Field Office Performance (A-15-12-11290)                                                                E-10
Notes to all tables in this appendix

General – Unless otherwise noted above, amounts are for FY 2011.

1.   Workload Count information was obtained from the District Office Workload Report (DOWR).

2.   Total Cleared Claims represents the sum of Title II OASI, DI, and Title XVI SSI D/B Cleared Claims.

3.   Total Other Services represents the sum of Status Changes and Benefit Verifications, and Enumerations.

4.   Total Workload Counts represents the sum of Total Cleared Claims and Total Other Services Cleared.

5.   Processing Time information was obtained from Management Information (MI) Central Processing Time Reports. We used FO processing time only in our
     calculations (instead of Overall processing time) so that a FOs was not affected by offices outside of its control (DDS, PSC, etc.).

6.    Title II RSHI Timeliness Percent represents RSHI claims that meet timeliness criteria as a percentage of all RSHI claims included in timeliness counts. For
     example, in Table E–1 the Top Office in our 1,177 FO population processed 94.4% of its Title II RSHI claims timely.

7.   The unit for these processing times is days. For example, in Table E–1 the Top Office in our 1,177 FO population, processed Title II DI claims in 7.3 days.

8.   Visitor count information was provided by OPSOS and obtained from the Customer Service Record (CSR) Operational Data Store (ODS).

9.   Visitor wait time information was obtained from the MI Central CSR.

10. Population and Median Household Income information by FO was obtained from a Geospatial Report prepared by the Office of Electronic Services (OES)
    based on 2010 Census data.

11. We computed the Population per Average FO employee by dividing the 2010 Population by Average FO Employees FY 2010 to 2011.

12. The number of Title II beneficiaries and Title XVI recipients was obtained from the Agency's Recipient in Force/Beneficiary in Force quarterly report as of
    September 2011.

13. Employee counts, average years of service and average salary by FO were provided by OPSOS.

14. We computed the average number of FO employees based on employee count information provided by OPSOS as of the end of FYs 2010 and 2011.




Field Office Performance (A-15-12-11290)                                                                                                                    E-11
           Appendix F – AGENCY COMMENTS




                                           SOCIAL SECURITY

 MEMORANDUM

Date:      September 30, 2013                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Kate Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Field Office Performance” (A-15-12-11290) —
           INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to

           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Field Office Performance (A-15-12-11290)                                                      F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"FIELD OFFICE PERFORMANCE" (A-15-12-11290)

As we noted throughout this review, we are concerned with any suggestion of nationally ranking
field offices based on “performance.” You do not clearly define “performance” in your report,
but you appear to base it on volume and speed of work produced. The fact that you deemed
larger offices as “higher performing” suggests that you defined high performance as a function of
size and volume when there are many other factors involved. Instituting a national ranking
approach would be counterproductive to the environment that we work to develop. In an era of
staffing losses, without adequate replacement hires, we need to assess our resources and the
capacity to perform work globally. Physical location and office size should not be factors when
comparing performance. We do agree that managers, particularly new managers, should have an
agreed upon primary source for workload tracking and performance reporting.

Recommendation 1

Identify the most accurate, complete, and reliable data source(s) for Agency workload count and
processing time data, and ensure that all Agency components are using the same source(s) for
reporting purposes.

Response

We agree. In fiscal year 2014, we will use the Management Information National Indicators
(MINI) report, which is a web-based application that tracks Public Service Indicators (PSI). The
MINI report sets performance expectations and defines our collective operational priorities. The
MINI will be the official report for tracking PSIs and, therefore, performance.

Recommendation 2

Develop a methodology for measuring and monitoring nationwide field office performance to
ensure accurate, consistent, and timely customer service.

Response

We agree. We will use the MINI report referenced above to assist us in ensuring accurate,
consistent, and timely customer service.




Field Office Performance (A-15-12-11290)                                                     F-2
Appendix G – MAJOR CONTRIBUTORS
Victoria Vetter, Director

Judith Kammer, Manager

Lori Lee, Senior Auditor

Ron Anderson, Senior Auditor

Brennan Kraje, Statistician




Field Office Performance (A-15-12-11290)   G-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   ·   OIG news                                  In addition, we provide these avenues of
   ·   audit reports
                                                 communication through our social media
                                                 channels.
   ·   investigative summaries
   ·   Semiannual Reports to Congress                Watch us on YouTube
   ·   fraud advisories                              Like us on Facebook
   ·   press releases
                                                     Follow us on Twitter
   ·   congressional testimony
   ·   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
